19

AFFIDAVIT OF SERVICE
I, Donna Grodner, of lawful age, being duly sworn, upon my oath state that I did,
on May 29, 2020, send out this brief from 2223 Quail Run Drive, Ste. B, Baton Rouge,
La, 70808, as the Respondent to the counsel listed below and, beside mail, I did cause
the Counsel of Record to receive the brief by email.

David D. Cole
American Civil Liberties Union
Foundation
915 15th Street, NW
Washington, DC 20005
Katie Schwartzmann
Bruce Hamilton
American Civil Liberties Union
Foundation fo Louisiana
P.O. Box 56157
New Orleans, LA 70156
William P. Gibbens
Ian Atkins
Schonekas, Evans,
McGoey & McEachin, LLC
909 Poydras Street, Ste 1600
New Orleans, LA 70112

Donna U. Grodner
Counsel of Record
Donna U. Grodner (20840)
GRODNER & ASSOCIATES
2223 Quail Run, B-1
Baton Rouge, Louisiana 70808
(225) 769-1919 FAX (225) 769-1997
Dgrodner@grodnerlaw.com
Counsel for Officer John Doe,
Respondent
David T. Goldberg
Counsel of Record
Donahue, Goldberg, Weaver & Littleton
109 South Fifth Street, Ste 4201
Brooklyn, NY 11249
(212)334-8813
david@donahuegoldberg.com
Ben Wizner
Vera Eidelman
Brian Hauss
Emerson Sykes
American Civil Liberties
Union Foundation
125 Broad Street, 18th Floor
New York, NY 10004

